CERTIFICATE OF SERVICE
No. 21Robert Paul Rundo, Robert Boman,
Tyler Laube, and Aaron Eason,
Petitioners,
v.
United States of America,
Respondent.
I, Brianna Mircheff, hereby certify that, on this 8th day of October, 2021, I
caused one copy and an electronic copy of the Petition for a Writ of Certiorari in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following parties:
Brian H. Fletcher
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for Respondent
United States of America
/s/ Brianna Mircheff
BRIANNA MIRCHEFF
Federal Public Defender’s Office
Central District of California
321 East 2nd Street
Los Angeles, CA 90012
(213) 894-4784
Brianna_Mircheff@fd.org

